                                                                   United States Department of State
                                                                   and the Broadcasting Board of Governors

                                                                   Office of Inspector General

                                                                        FEB 19    : ~tl

Dear Mr. Chairman:

         In compliance with Section 232 of the William Wilberforce Trafficking Victims
Protection Reauthorization Act of2008 (TVPRA), the Department of State (Department) Office
of Inspector General (OIG) is pleased to submit this summary of activities and findings related to
trafficking in persons for the period of January 1, 2012, to December 31, 2012. OIG has
continued to use the talents and resources of its three offices in an integrated and sustainable
effort to address the issue oftrafficking in persons. Summaries of each office's 2012 activities
and findings related to trafficking in persons are detailed below.

Office of Audits (AUD)

        In January 201 1, the OIG Middle East Regional Office (MERO) 1 issued the report
Performance Evaluation of Department ofState Contracts to Assess the Risk ofTrafficking in
Persons Violations in Four States in the Cooperation Council for the Arab States ofthe Gulf
(MERO-I-11-06). The report reviewed Department efforts to combat trafficking in persons at
Embassy Abu Dhabi, United Arab Emirates (UAE); Embassy Kuwait City, Kuwait; Embassy
Muscat, Oman; Embassy Riyadh, Saudi Arabia; and consulates general in Dhahran, Saudi
Arabia, and Dubai, UAE. In the review, AUD identified several contractor practices that
increased the risk of trafficking in persons and issued seven recommendations to the four
embassies and to the Bureau of Administration, Office of the Procurement Executive (A/OPE).
These recommendations addressed the need for improving employment and living conditions for
foreign contracted workers and for improving contract monitoring for potential trafficking in
persons violations.



The Honorable Robert Menendez
      Chairman,
             Committee on Foreign Relations.
                    United States Senate.




1
    MERO was merged into the Office of Audits as the Middle East Region Operations directorate in August 2011.
                                                      -2-

        Jn 2012, AUD issued a report on Department actions to implement the recommendations
in MER0-1- 11-06 and to determine whether they should be closed or reissued. 2 AUD determined
that the four embassies and A/OPE had taken sufficient actions to close three of the
recommendations, finding that embassies had obtained and transmitted country-specific passport
retention laws to their respective contractors; improved the living conditions for gardeners in
Riyadh, Saudi Arabia; and developed guidance and training for monitoring contracts for
potential trafficking in persons violations. I lowever. AUD determined that the Department had
not taken, or did not have opportunities to take, sufficient actions to close the remaining
recommendations. Therefore, AUD reissued four recommendations related 10 contractor passport
retention and payroll practices, and contractor compliance with labor standards. In addition,
AUD made one new recommendation to Embassy Riyadh and two new recommendations to
A/OPE based on issues identified during the compliance followup review. The new
recommendations concerned unsafe contractor-provided housing for janitors in Dhahran, Saudi
Arabia, and recommended that A/OPE clarify guidance on monitoring contracts for potential
trafficking in persons violations mandated in the A/OPE Procurement Information Bulletins
(PIB).3 In response to the recommendations, A/OPE issued additional guidance clarifying
requirements under both PIBs. AUD is reviewing these actions to determine whether they are
sufficient to close the recommendations.

Office of Inspections (ISP)

        As noted in last year·s report, ISP designated trafficking in persons as an issue that all
inspection teams should address in the course of their reviews of all embassy and consulate
operations, as well as applicable domestic bureaus, in 2012. Inspection teams were asked to
complete a trafficking in persons questionnaire during their post inspections. Embassies in
countries heavily dependent on third country national labor and where large construction and
service contracts are in place are at particularly high risk for trafficking. During this period, OJG
inspection teams completed the questionnaire at 13 embassies and consulates in Lisbon,
Portugal; Madrid, Spain; Paris, France; San Jose, Costa Rica; Bangkok, Thailand; Bandar Seri
Begawan, Brunei; Singapore. Singapore; Lagos and Abuja, Nigeria: Manila, Philippines; Phnom
Penh. Cambodia; Buenos Aires, Argentina; and Santiago, Chile. None of the posts had third
country nationals on their contract staff. There was a third country national on the official
residence expense (ORE) staff in Phnom Penh but no issues were reported concerning the
employment agreement.

2
  Compliance Followup Review of Department ofState Actions to Reduce the Risk of Trafficking in Persons
Violations in Four States in the Cooperation Council for the Arab States ofthe Gu!((Repo11 Number AUD-MER0-
12-47, September 2012).
3
  Office of the Procurement Executive Procurement Information Bulletin No. 2011-09, Combating Trafficking in
Persons (March 24, 2011), and Office of the Procurement Executive Procurement lnfonnation Bulletin No. 2012-10.
Contractor Recruitment of Third Country Nationals (February 28, 20 12).
                                                         -3-

           NOPE PlB No. 201 1-09 requires contracting officer" s representatives (COR) to ensure
that all solicitations and contracts over the micropurchase threshold ($3,000) contain Federal
Acquisition Regulation (FAR) clause 52.222-50, Combating Trafficking in Persons (2009), and
other contractor requirements and Department remedies related to trafficking in persons. Of the
13 post visits, inspection teams found that 10 of the posts (77 percent) included the required FAR
clause in the contracts sampled. ISP \\TOte recommendations and/or counseled posts accordingly.

         Prior to the distribution of the FY 2012 trafficking in persons questionnaire, ISP added
questions in response to new Department guidance for contracting officers (CO) and CORson
monitoring for trafficking in persons. This guidance included COs/CORs responsibilities for
monitoring trafficking in persons compliance and guidance for structuring a monitoring
program.4 Most ofthe posts inspected reported that COs/CORs are familiar with PIB No. 2011 -
09 requiring management sections to ensure that COs/CORs are familiar wi·.h and follow
guidance outlined in the PIB. However, only three of the 13 posts indicated they have structured
a trafficking in persons monitoring program using PIB suggestions and that the COs/CORs are
actively following it as well as it being part of the COs/CORs contracting file. OIG included
recommendations or counseled posts to address these deficiencies.

       None ofthe posts reported that COs/CORs suspected or had knowledge of trafficking in
persons activities in relation to employees of any mission contract. Most of the posts inspected
reported that ORE staff at their posts had signed employment agreements that included a
description of duties and that the ORE staff felt they were working within the scope of their
agreements. As noted earlier, none of the posts had third country nationals on their contract staff.
There was a third country national on the ORE staff in Phnom Penh but no issues were reported
concerning the employment agreement.

        For security contracts, three posts reported that the regional security officer served as the
COR on contracts over $3,000 and that FAR clause 52.222-50 is in the contract. All of these
posts reported that the COR is familiar with PIB No. 2011-09, but none had structured a
monitoring program using the PIB guidance. Conformance with local laws or guards vetted
before hiring were the reasons regional security officers gave for the lack of a monitoring
program.

       In FY 2012, OIG issued a report on the inspection of the Office to Monitor and Combat
Trafficking in Persons (J/TIP).5 The inspection report noted J/TIP's efforts and successes in

4
 Office ofthe Procurement Executive Procurement Information Bulletin No. 201 1-09 (September 19,2012 Update,
September 19, 2012).
5
    Inspection ofthe Office to Monitor and Combat Trafficking in Persons (Report Number ISP-I- 12-37, June 2012,
pp. 9, 10, 21, 27).
                                                         -4-

helping the Department of Homeland Security launch two online interactive training modules,
one for the general public and the other for all Federal acquisitions professionals aimed at the
zero tolerance policy in government contracting. JffiP also worked with the Bureau of
Educational and Cultural Affairs to incorporate trafficking-prevention components among the
measures taken to revamp the Summer Work Travel program. The office has also worked with
the Office of Protocol to better track allegations of abuse and establish requirements for the
treatment of domestic workers of foreign diplomats in the United States to help prevent
trafficking in persons abuses.

        The J/TIP inspection report found that embassies were not receiving regular periodic
grantee performance reports sent by grantees to J/TIP as a condition of the grant agreement. 6
Embassy receipt of the reports could be beneficial, for example, strengthening their ability to
spot possible problems and facilitate monitoring perfonnance on the spot. The inspectors
recommended that JffiP amend the language in the standard grant agreement to commit grantees
to make their semiannual performance reports to the office available simultaneously to the
concerned embassy. At the time of this reporting cycle, the report's compliance for the report
was still open. JffiP said it agreed with the recommendation and plans to implement it in the
next round of grant awards. Also during the reporting period, Embassy Ri yadh, Saudi Arabia.
took steps to increase monitoring requirements in response to an OIG inspection
recommendation for the embassy to implement standard operating procedures for monitoring
contracts' and contractors ' compliance with anti-traffi cking requirements. 7 In response, OIG
closed the recommendation for acceptable implementation.

Office of Investigations (INV)

        Recognizing the importance of combating global trafficking in persons, INV continued
with proactive efforts to engage the broader Federal law enforcement community in pursuing
trafficking in persons referrals and allegations abroad. INV coordinated with the Department of
Justice (DOJ) Human Trafficking Prosecution Unit, as well as with fellow Federal investigative
organizations with trafficking in persons responsibilities, to determine current law enforcement
involvement and ways to broaden law enforcement involvement in combating trafficking in
persons. INV also continued its pruiicipation in J/TIP briefings and networking opportunities,
both within and ,.,rjthout the law enforcement community, to further these proactive anti-
trafficking in persons efforts.



6
    Trafficking In Victims Protection Act of2000 is included in the U.S. Department of State Standard Terms and
Conditions for Overseas Federal Assistance Awards (October I, 2009).
7
    Inspection of Embassy Riyadh and Constituent Posts, Saudi Arabia (Report Number !SP-l-1 0- 19A, March 20 I 0).
                                                 -5-

           V continued its partnership with NOPE as well as \\~th the Bureau of Diplomatic
Security to ensure Department trafficking in persons-related allegations are brought to the
attention of the appropriate Jaw enforcement entity. INV continued its participation in the anti-
trafficking in persons working group in Baghdad, Iraq, which includes merr bers from other
Department entities, DOJ, U.S. Immigration and Customs Enforcement, the International
Organization for Migration, and nongovernmental organizations.

        INV personnel in Baghdad, Iraq, participated in trafficking in persons-related training
sessions held at the Iraq Federal Police Academy and established relationsh1ps with host country
officials responsible for trafficking in persons investigation and prevention. INV will continue
developing such relationships as part of its proactive program of promoting effective bilateral
communication of trafficking in persons-related referral and investigative information.

        During this reporting period, INV actively pursued investigative leads and referrals and
responded to four allegations of trafficking in persons violations by contractor, grantee, or other
nongovernmental personnel. Two ongoing investigations concern alleged misuse oftrafficking in
persons-related grant funds. Additionally, suspension action has been taken by the Department
on a trafficking in persons grantee.

        One final activity of note was the involvement of INV personnel in Baghdad in assisting
a victim of trafficking in persons. In March 2012, information regarding a trafficking in persons
victim came to the attention of an INV special agent assigned to Baghdad. This information was
referred to INV solely as a result of the working relationships that have been developed through
involvement with the local anti-trafficking in persons working group. Although the
circumstances of this particular case did not specifically involve Department personnel, funds, or
programs, the INV special agent went the extra mile to successfully mobilize Department and
nongovenunental organizational officials to ensure the victim received shel1er, counseling, and
repatriation.

        OIG remains fully committed to providing vigorous oversight of the Department's efforts
to combat trafficking in persons-related activities and to investigate trafficking in persons-related
violations.

                                              Sincerely.        ~

                                            ~·
                                              Harold W. Geisel
                                              Deputy Inspector General
